AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Audit Report

 Voluntary Separation Program at the
 Idaho Cleanup Project




 DOE/IG-0765                                May 2007
                             Department of Energy
                                 Washington,   DC 2 0 5 8 5

                                 M a y 18,     2007

MEMORANDUM FOR THE SECRETARY

FROM:
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Voluntary Separation
                         Program at the Idaho Cleanup Project"

BACKGROUND

On May 1, 2005, CH2M Washington Group Idaho, LLC (CWI), assumed responsibility for
the management and operation of the Department of Energy's (Department) environmental
reniediation project at the Idaho National Laboratory site. In its contract proposal, CWI
included a strategy for workforce restructuring to optimize employment levels and obtain
the proper skills mix to safely address the project's objectives. The Department approved a
two-phased restructuring approach, permitting CWI to separate up to 700 employees by
offering a voluntary separation program in January 2006; and, if necessary, an involuntary
separation program in March 2007. As a result of this initiative, 291 CWI employees were
separated voluntarily at a cost to the Department of $14 million.

We conducted this audit to determine whether the cost and benefits associated with
Idaho's voluntary separation program were consistent with recent similar efforts at other
Department facilities and whether the separation was structured to ensure that the Idaho
Project retained the skill mix necessary to meet mission objectives.

RESULTS OF AUDlT

As noted previously, the Idaho separation program reduced the size of the CWI
workforce. Consequently, it will result in monetary savings to the Department over time.
However, the separation program proved to be exceptionally costly and, in certain
respects, inefficient. Specifically, the program:

       Provided significantly higher incentives than were offered in other recent
       comparable Department separation programs;

       Used costly incentives that did not have analytical support to justify the additional
       benefits paid; and,

       Did not retain critical skills of certain employees needed to accomplish the Idaho
       Cleanup Project's work scope.

We evaluated the separation scheme at Idaho by contrasting it to other recent
Departmental efforts. We noted that 24 of the last 26 contractor restructurings
throughout the complex, conducted in Fiscal Years 2004 and 2005, provided only
involuntary separation benefits based on years of service and other benefits. The CWI
voluntary workforce restructuring provided up to 10 weeks of pay and $25,000 to each
cmployee -- in addition to the traditional involuntary separation benefits. The
supplemental voluntary separation incentives offered by CWI averaged $35,000 per
employee. The CWI voluntary separation program was also ~nateriallyinconsistelit with
tlie two other voluntary separations that the Department offered during tliis period. For
example, the voluntary workforce reduction conducted at the Waste Isolation Pilot Plant
provided an ilice~itiveof only $5,000 per employee. These inconsistencies raised issues
of fundamental fairness in temis of eiiiployce relations, in addition to questions as to the
prudelit use of taxpaycr-provided funds.

CW 1's voluiitary prograin was approved by the Department. We found, howcver, that
this was done without conducting formal cost analyses or conlparisons to support the
need for additional incentives to achievc the goals of the prograni. The Department had
not:

       Ilefincd organizational responsibility for performing cost analyses and
       co~nparisonsof workforce restructuring prograins to justify the amount of
       incentive paid; nor had it,

       Provided adequate guidance to assist field offices and contractors in planning
       workforce restructuring actions.

One of the Department's goals was that the CWI separation program structure retained
pcrsonncl with specific skills needed to accomplish the mission. Yet, we noted that the
Deparlment had to backfill 44 (or 15 percent) of the positions vacatcd through the CWI
separation program, within six months of the separation date. The direct cost of
backfilling these positions and thc turbule~iceassociated with such action raised
additio~ialconccms about the mechanics of the separation program.

Additionally, we found that 249 individuals had left the contractor for other emplojment
while tlie separation program was awaiting Departmental approval. Yet, neither the
Department nor CWI reevaluated the workforce skill mix and requirements before
iniplementing the restructuring despite the significant reduction in CWT employees. This
niay havc significantly impacted the need to backfill positions.

The workforce restructuring at Idaho will result in an average annual savings of about
%23 million. However, our analysis showed that the Department spent as much as $10
niillioii more for the CWI voluntary separation prograni than it had on other comparable
efforts. Additionally, nearly $2 million was spent to voluntarily separate cmployees
whose skills were needed for the cleanup mission and whose positions were backfilled
within six nionths of being separated. We could find no documentation to support the
notion that elnployee incentives exceeding those provided in other parallel Departmental
restructuring efforts were necessary to meet the objectives of the program.

To ensure the reasonable and equitable treatment for scparated employees and their
affected communities, the Department needs a co~lsistentapproach to workforce
restructuring. Our report includes specific recommendations to achieving tliis goal by
improving management of future workforce separations.
MANAGEMENT REACTION

Management expressed general concurrence with the audit recon~mendations,but
expressed its view that the audit had not adequately considered the local circumstances
underlying contractor work force actions across the Departilleilt complex. This included
differing mission objectives, the number of employee separations, site labor agecments,
funding availability, contract type and site-specific stakeholder input. We recognize that
local conditions affect separation programs. But, we believe that the
co~~~pa~~isons/contrastswe drew between the Idaho program and other Department
contractor separation programs were fair and valid for analytical purposes. A suillnlary
of the 26 workforce reductions conducted during Fiscal Years 2004 and 2005, is
presented in Appendix 3 of the audit report.

The underlying purpose of the audit was to determine if the Idaho experience provided
lessons leanled for future Department of Energy restructuring efforts. We believe that it
did. For this reason, despite our unresolved disagreements with managen~ent,we are
pleased that the planned actions are responsive to the report's recommendations. We are
hopeful, as well, that they will be considered in future Departmental personnel
restructuring programs. The concerns raised by management and the auditor's response
to those concerns are discussed in the body of this report. Management's comments arc
included in their entirety in Appendix 5.

Attachment

cc:   Deputy Secretary
      Acting Under Secretary of Energy
      Under Secretary for Science
      Chief of Staff
      Assistant Secretary for Environmental Management
      Director, Legacy Management
      Manager, ldaho Operations Office
REPORT ON VOLUNTARY SEPARATION PROGRAM AT THE IDAHO
CLEANUP PROJECT


TABLE OF
CONTENTS


  Consistency of Separation Program

  Details of Finding                                  1

  Recommendations and Comments                        8


  Appendices

   1. Objective, Scope, and Methodology               11

   2. Related Audit Reports                           13

   3. Separation Programs                             14

   4. Backfilled Positions                            15

   5. Management Comments                             16
IDAHO SEPARATION PROGRAM

Background           In the past, the Department of Energy's (Department) contractors
                     experienced massive and unprecedented workforce restructuring
                     activities to reflect the Department's changing mission priorities.
                     These events, which took place in the 1990s, led to the loss of
                     approximately 50,000 jobs, greatly affecting local communities. In
                     order to mitigate the effects on these workers and their
                     communities, the Department implemented a policy to minimize
                     involuntary layoffs. This policy was implemented by offering
                     generous early retirement incentives for those who were eligible,
                     voluntary separation incentives for those who were not, and, as a
                     last resort, involuntary separations.

                     However, the Department's current trend is to offer involuntary
                     separation benefits. These involuntary severance packages provide
                     cash payments based on years of service as well as other benefits,
                     including health benefits that continue after termination for defined
                     periods of time, and outplacement assistance.

                     The Idaho Cleanup Project workforce restructuring was overseen
                     by the Department's Office of Environmental Management (EM),
                     as well as the Department's Office of Legacy Management (Legacy
                     Management). Legacy Management is considered the subject
                     matter expert on restructuring activities and provided assistance
                     and guidance to EM to ensure workers were treated fairly, critical
                     skills were retained, and severance packages were consistent with
                     other Departmental sites. According to Legacy Management's
                     planning guidance, contractor workforce restructuring plans should
                     be presented to Legacy Management for approval. Prior to
                     approval, this office coordinates the appropriate review, analyses
                     and evaluation of proposals with other Departmental offices,
                     including the affected program office, the Office of General
                     Counsel, field management, and procurement.

Separation Program   Although the voluntary separation program successfully reduced
at Idaho             the size of the CH2M Washington Group Idaho, LLC (CWI)
                     workforce, it provided significantly higher incentives than were
                     offered in other recent Department separation programs and did
                     not retain some of the critical skills needed to accomplish the
                     Idaho Cleanup Project's work scope.

                                       Significantly Higher Incentives

                     The incentives under the CWI voluntary separation program were
                     higher than those offered in other recent Department voluntary
                     separation programs. Specifically:




Page 1                                                               Details of Finding
            •   In a voluntary separation in Fiscal Year (FY) 2004, the Oak
                Ridge complex in Oak Ridge, Tennessee, separated 193
                employees. Voluntarily separated employees were offered
                an incentive that increased the involuntary severance
                benefits by an additional 50 percent. We applied the Oak
                Ridge complex severance plan to the separated CWI
                population (for comparability), and determined that this
                amounted to an average voluntary incentive of $12,800 per
                employee. In contrast, the voluntary incentive offered to
                CWI employees averaged $35,100 per employee.

            •   In FY 2004, the Carlsbad Field Office in Carlsbad, New
                Mexico, offered employees at the Waste Isolation Pilot
                Plant an additional incentive of $5,000 to voluntarily
                separate. Once again, in contrast, the voluntary incentive
                offered to CWI employees averaged $35,100 per employee.

         In total, the CWI separation incentives cost $6.5 million more than
         the voluntary severance incentive offered by the Oak Ridge
         complex and over $8.7 million more than the voluntary severance
         incentive offered by the Carlsbad Field Office.

         The Department's decision to approve the voluntary incentives for
         the CWI voluntary separation program was also inconsistent with
         recent trends to conduct contractor staff reductions that offer only
         involuntary separation benefits. Specifically, the Department
         offered involuntary separation benefits in 24 of the 26 recent
         workforce restructurings (see Appendix 3) carried out by the
         Department during FYs 2004 and 2005. For example, in FY 2005,
         the Savannah River Site in Aiken, South Carolina, and the Hanford
         Site in Richland, Washington, separated a total of 1,590 employees
         without offering an incentive benefit. Similar to the Idaho site,
         these sites are located in relatively small communities where the
         Department is a major employer with environmental management
         missions.

         The CWI separation program, with its added incentives, led to
         significantly higher severance payments, as compared to what
         would have been paid had involuntary separation benefits been
         offered. In total, $10.2 million of the $14.2 million paid in CWI
         severance payments was for the incentive portion of the separation
         program.

         According to the Department's Office of General Counsel, the
         primary advantage of using a voluntary separation incentive is that
         the Department requires a "Release of Claim" from those
         employees who accept the voluntary incentives. The Office of
         General Counsel asserted that these releases help protect the


Page 2                                                  Details of Finding
         Department from potential legal claims that employees may
         otherwise seek. However, our analysis showed that there have
         been only 2 legal settlements resulting from the 24 involuntary
         workforce restructuring activities carried out by the Department in
         FY 2004 and 2005.

         In reviewing a draft of this report, management stated that since
         the contract target price included an "advanced understanding" of
         workforce restructuring costs, there is no increased cost to the
         Government. However, we noted that the original contract
         proposal, upon which the contract award was made, included an
         estimate that only $12,500 would be paid to separate each
         employee – an amount consistent with involuntary separation
         benefits. In the end, an average of $48,900 was paid to each
         employee, due largely to the average of $35,100 in voluntary
         incentives offered by CWI.

                              Retaining Critical Skills

         In addition, CWI's voluntary separation program did not retain
         some critical skills of certain employees needed to accomplish the
         Idaho Cleanup Project work scope. According to CWI's workforce
         restructuring plan, the Idaho Cleanup Project required a workforce
         with different skill sets than the contractor had in place when it
         assumed the contract. Both CWI and the Idaho Operations Office
         (Operations Office) originally envisioned a voluntary separation
         program in which the skills mix was thoroughly evaluated,
         compared to program needs, and surplus positions targeted for
         separation. However, the program was ultimately open to any
         employee who wished to participate.

         Within six months of the separation date, CWI had to backfill 44
         of the 291 (15 percent) positions vacated by separation participants
         who had received severance payments. CWI determined that these
         positions were needed to support cleanup efforts at the Idaho
         Cleanup Project (see Appendix 4). For example:

            •   Although CWI was already experiencing a shortage of
                decontamination and decommissioning workers before the
                voluntary separation program, 19 employees in this area
                were allowed to participate in the separation program.
                CWI backfilled 14 of these positions with new hires.

            •   Four managers of critical areas such as dosimetry,
                subsurface disposal area operations, maintenance, and
                human resources participated in the separation program.
                CWI hired new managers to replace these manager
                positions.


Page 3                                                    Details of Finding
                     The Idaho Operations Office's Work Force Restructuring Plan
                     specifically stated that backfilling was only permitted "for
                     vacancies created by circumstances other than employees
                     separating pursuant to incentive separation programs."
                     Nonetheless, CWI spent nearly $2 million on severance benefits to
                     the employees who vacated critical positions and for which
                     replacements had to be hired.

                     In reviewing a draft of this report, the Operations Office stated that
                     CWI requested and was granted authority to backfill roughly 10 to
                     15 employees. Also, the Operations Office disagreed with the
                     auditors about the specific number of backfills that CWI hired,
                     stating that the auditors overstated the actual number of backfills
                     and that the auditors should not include subcontractors hired to
                     replace departed employees as backfills. However, the auditors'
                     estimate of 44 backfills, including 11 subcontractors, is a very
                     conservative number. Specifically, we used numerous factors
                     including CWI's job title, work description code, organization, and
                     position descriptions based on job tasks and responsibilities for
                     conservatism in our estimate. By matching these four descriptive
                     elements of a job, we eliminated many employees who would have
                     been considered backfills using only the job title, which is the
                     methodology CWI used for its skills mix analysis. Finally, we
                     concluded that subcontractors should be considered as backfilled
                     positions since they perform the same duties and responsibilities as
                     the employees who received severance payments to leave CWI.
                     CWI also considered subcontractors to be backfilled positions until
                     they reviewed a draft of this report.

Administration of    These problems occurred because of several weaknesses in the
Separation Program   administration of the voluntary separation program. Specifically,
                     the Department did not:

                       •   Adequately define organizational responsibility for
                           performing and documenting cost analyses and comparisons
                           with workforce restructuring programs at other sites to
                           justify the amount of incentive provided; and,

                       •   Provide adequate guidance to evaluate the cost and benefits
                           of expending funds in excess of involuntary separation
                           costs.

                     Additionally, we noted that as the staffing circumstances changed,
                     neither the Department nor CWI reevaluated the plans for the
                     voluntary separation program or sufficiently monitored its
                     subsequent hiring activities.


Page 4                                                                Details of Finding
                  Analysis and Justification of Incentive Amounts

         Departmental officials were not aware of any documented analysis
         that CWI had performed in developing the incentives amount
         offered, stating that it was the contractor's responsibility to manage
         the workforce. When we discussed this concern with management,
         we were informed that while the Operations Office and CWI did
         not document a formal analysis, an informal analysis was
         conducted. According to management, this analysis included a
         discussion and review of CWI's proposed incentives which the
         Operations Office found to be reasonable and judged that it would
         successfully encourage as many CWI employees to voluntarily
         leave as possible. However, in the absence of a documented
         analysis, we were not able to assess the validity of management's
         assertions on the matter.

         Additionally, Department management asserted that it reviewed
         and analyzed CWI's "Business Case" which provided the cost to
         benefit calculations for their workforce restructuring activities.
         However, the business case did not address the appropriateness of
         the amount of incentives that were offered to the employees, and
         the rationale for arriving at the generous amounts offered to the
         workforce. Finally, management also noted that the separation
         costs were included and evaluated during the contract award
         process. However, as previously indicated, the contract proposal
         estimated separation costs of only $12,500 per employee, rather
         than the average payment of $48,900 that was ultimately paid to
         each participant.

         We also found that the Federal stewardship for analyzing,
         accepting and monitoring the implementation of CWI's voluntary
         separation package had not been adequately defined. Each of the
         Departmental offices involved in the process, EM, Legacy
         Management, and the Operations Office, stated that they had not
         been assigned responsibility for analyzing the severance payment
         amounts. The Operations Office informed us that before they
         could implement the plan, Legacy Management was required to
         approve the restructuring plan. This is consistent with DOE Order
         350.1, which requires Legacy Management approval for all major
         workforce restructuring activities, since it is the subject matter
         expert. However, Legacy Management officials stated that it was
         EM's responsibility to assess the appropriateness of the amount
         offered in CWI's severance plan since its program funds were used
         to fund the separation. EM, in turn, relied on the Operations
         Office and Legacy Management to do this. Legacy Management



Page 5                                                    Details of Finding
         asserted that it is responsible for approval of the use of funds
         specifically provided by Congress throughout the 1990s and until
         2004 for transitioning Cold War employees, and is not responsible
         for approving the use of program funds for workforce restructuring
         plans.

         Both the Operations Office and Legacy Management indicated that
         the Office of Contractor Human Resources (an office in the
         Department's Procurement business line) had oversight authority
         for all contractor severance programs, since these are reviewed as
         part of the contract award process; therefore, this office approved
         the severance benefits offered by the contractor in its winning
         contract proposal and subsequent development of the contract.
         However, according to Legacy Management Guidance, major
         workforce restructuring activities (such as the one being conducted
         by CWI) require an additional approval and review process to be
         led by Legacy Management. Since the severance benefits offered
         by CWI exceeded the benefits contemplated in CWI's contract
         proposal, we concluded that management should have more fully
         analyzed the need for such a generous voluntary incentive.
         Unfortunately, since each group assumed the other was doing the
         necessary analysis to justify and approve the severance amount,
         ultimately, none of the cognizant groups were able to provide this
         analysis to the auditors.

                              Departmental Guidance

         We also noted that the Department did not have clear guidance on
         workforce restructurings to assure consistency and reasonableness
         over expenditures for separations. While the Department did offer
         guidance articulating its goal that involuntary separations and the
         impact to employees and communities should be minimized, this
         general guidance was not consistent with recent Department
         practices in which the overwhelming majority of the separations
         were paid only involuntary severance benefits.

         Furthermore, although Legacy Management's strategic plan
         requires it to provide "… definitive direction on the amounts of
         severance permitted for workforce separations" and "… separation
         benefits comparable to industry standards," it had not issued
         sufficient guidance to ensure fair and equitable treatment across
         the Department. Rather, Legacy Management's role in the process
         was limited to reviewing CWI's workforce restructuring program
         for legality, completeness, and fair treatment of protected classes
         of employees. Also, the Department had not established
         performance measures to be used in weighing the costs and



Page 6                                                  Details of Finding
                    benefits of using incentives to achieve desired workforce
                    restructuring goals. Departmental officials informed us that any
                    savings are worthwhile and that any performance measure would
                    be fairly arbitrary. However, we noted that until FY 2004, the
                    Department measured its savings from workforce restructurings.
                    In fact, the Department's experience indicated that past workforce
                    restructurings met a performance measure in which the annual
                    savings ratio was three times the one-time cost of the separation.
                    In the case of the CWI restructuring, the average annual savings
                    were 1.6 times the one-time cost of the restructuring.

                                                Monitoring

                    From May to December 2005, while the voluntary separation
                    program was awaiting approval from the Department, there was
                    considerable employee turnover at CWI. During this period, 249
                    employees left the contractor for positions elsewhere and 107 new
                    employees were hired. Despite this turnover, the Operations
                    Office did not require CWI to reassess their skills mix and
                    workforce requirements. Additionally, the Operations Office did
                    not sufficiently monitor CWI's subsequent hiring activities.
                    Specifically, the Operations Office granted CWI permission to
                    backfill a small number of critical positions, roughly 10-15, if CWI
                    found this necessary subsequent to the separations program. This
                    permission was granted despite the Operations Office requirement
                    that the contractor avoid backfilling positions except for positions
                    created by circumstances other than an incentivized voluntary
                    separation program. However, the Operations Office did not
                    sufficiently monitor CWI's hiring activities to ensure that no more
                    backfills than agreed to were being hired.

Cost of Voluntary   As a result, the Department spent between $6.5 million and
Separation          $10.2 million more for CWI's voluntary separation program than
                    comparable separations. Additionally, the Department spent
                    nearly $2 million to voluntarily separate employees whose
                    positions were backfilled within 6 months of being separated.
                    Without a consistent approach to workforce restructuring, the
                    Department cannot ensure the reasonable and equitable treatment
                    of separated employees and their affected communities.




Page 7                                                             Details of Finding
RECOMMENDATIONS   1. We recommend the Director, Office of Legacy Management:

                         a. Work with programmatic secretarial offices to clearly
                            delineate roles and responsibilities for workforce
                            restructuring;

                         b. Develop and issue Department-wide guidance to assist
                            field offices and contractors in planning workforce
                            restructuring actions, including methodologies for
                            determining appropriate amounts of benefits offered
                            and corporate parameters (limits) on restructuring
                            activities; and,

                         c. Establish Department-wide performance standards to
                            evaluate and weigh the relative cost and benefits of
                            workforce restructuring activities to assist management
                            in its evaluation of proposed actions.

                  2. We recommend the Assistant Secretary for Environmental
                     Management require sites to justify and document the
                     reasoning behind benefits offered in workforce restructuring
                     activities, and consider factors such as community impact,
                     industry standards, and Department trends.

                  3. We recommend the Manager, Idaho Operations Office:

                         a. Require CWI to notify the Idaho Operations Office of
                            any other backfilling needs for their review and
                            approval;

                         b. Rigorously monitor subsequent hiring activities to
                            ensure excessive backfilling does not occur in future
                            workforce restructuring activities; and,

                         c. Evaluate whether any of the nearly $2 million in
                            payments to separate positions that were backfilled are
                            allowable under the contract.


MANAGEMENT        Department management concurred with the recommendations
REACTION          but expressed concern with some of the information presented in
                  the report. Specifically, management stated that the findings did
                  not take into consideration different circumstances underlying
                  contractor workforce actions across the complex; discounted the
                  net life cycle savings to be realized from the workforce reductions;
                  and misconstrued the effectiveness of the "Release of Claim" form
                  from voluntarily separating employees.


Page 8                                        Recommendations and Comments
           Management stated that the report findings did not take into
           consideration the different circumstances underlying contractor
           workforce actions across the complex such as (1) different mission
           objectives; (2) the number of employee separations determined
           necessary by a contractor for the necessary skill mix; (3) site labor
           agreements; (4) funding availability; (5) contract type; and, (6) site
           specific stakeholder input. Because of these differences,
           management did not agree that different separation incentives at
           different sites result in unfair or inequitable treatment.

           In management's view, the report also discounted the contractor's
           estimate of net life cycle savings of $143 million to be realized
           over the term of the contract. CWI's contract specifically provides
           additional financial incentives for the contractor if it completes the
           workscope under specified target costs. If the Department had not
           allowed the workforce restructuring, as completed, the contractor
           may have been unable to remain under the target costs and been
           subject to a reduced fee instead of earning an additional fee for
           remaining under the target costs.

           Finally, management asserted that the report misconstrued the
           effectiveness of a "Release of Claim" from voluntarily separating
           employees. Management believed that two legal settlements
           resulting from 24 involuntary workforce restructuring activities did
           not support the implied proposition that Releases of Claim used for
           voluntary separations are of little value.


AUDITOR    While management's proposed actions are responsive to the
COMMENTS   recommendations, we believe that the report clearly considered
           the circumstances underlying contractor workforce actions across
           the complex, highlighted the cost savings available to the
           Department through the workforce restructuring at CWI, and
           supports the need to assess the value and effectiveness of providing
           voluntary separation incentives to the workforce.

           While the report focused on similarities between sites rather than
           differences as noted by management, in performing the audit, we
           considered the issues raised by management. For example, the
           report compares the Idaho separation program to those at Savannah
           River and Hanford. All of these sites have a significant
           environmental cleanup mission, are in similar sized communities
           where the Department is the major employer, have a similar cost of
           living, and the workforce reductions were large. We believe that
           these similarities adequately justify a comparison. Also,
           management stated that the report did not consider the number of



Page 9                                                              Comments
          separations deemed necessary by a contractor for the necessary
          skills mix to complete its required workscope. On the contrary,
          this issue was a major element of the report. Specifically, we
          compared the CWI restructuring to sites such as Savannah River
          and Hanford, which also conducted workforce restructurings that
          involved large numbers of employees. Additionally, the report
          noted that CWI did not manage its separations program in a
          manner that retained employees with the skills mix required for the
          completion of the workscope. Accordingly, CWI was forced to
          backfill many necessary positions that it paid its employees to
          vacate.

          We did not find that other circumstances cited by management,
          such as site labor agreements, differences in funding availability,
          and contract types, were always germane to the decision to offer
          voluntary incentives. For example, site labor agreements did not
          address voluntary separation incentives, the only requirement
          being that normal severance be paid to employees that are
          involuntarily separated. Additionally, we did not find
          management's assertion about the impact of other circumstances on
          the decision to offer voluntary incentives compelling because the
          Department could not demonstrate that it had analyzed such
          circumstances in determining the amount of incentive to offer CWI
          employees.

          Management also stated the report failed to acknowledge the large
          life-cycle cost savings estimate the contractor anticipates from this
          separation action. Specifically, the report acknowledges that the
          separation program will result in significant cost savings and
          identifies the average annual amount of savings. However, had
          CWI offered severance benefits consistent with the amounts
          offered by other Department contractors, it could have met its
          workforce reduction goals at a lower cost. In fact, as noted in the
          report, the Department's experience indicated that past workforce
          restructurings met a performance measure in which the annual
          savings ratio was three times the one-time cost of the separation.
          In the case of the CWI restructuring, the average annual savings
          were only 1.6 times the one-time cost of the restructuring.

          Although the Department stated that the primary advantage for
          proceeding with a costly voluntary separation program was the
          "Release of Claim," we noted that, out of the 4,579 employees
          separated during the 24 involuntary workforce restructuring
          activities, only 2 individual claim settlements have resulted.
          Management could not demonstrate that it had considered whether
          the cost of the voluntary separation was offset by the benefit of
          obtaining the "Release of Claim" form from CWI employees.


Page 10                                                           Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the CH2M
              Washington Group Idaho, LLC (CWI), voluntary separation
              program was consistent with recent separations within the
              Department of Energy (Department) and whether it retained the
              necessary skills mix to meet the Idaho Cleanup Project mission.


SCOPE         The audit was performed from May 2006 to April 2007 at the
              Idaho Operations Office (Operations Office); CWI in Idaho Falls,
              Idaho; and the Department of Energy (Department) Headquarters
              offices in Washington, D.C. The audit covered the development of
              the CWI Voluntary Separation Incentive Program, implementation
              of the program in January 2006, as well as subsequent hiring
              activities at CWI through August 2006. Additionally, for
              comparison purposes, we reviewed 26 other Departmental
              workforce restructuring activities from Fiscal Year 2004 through
              the end of Fiscal Year 2005.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Obtained and reviewed Department guidance and
                     requirements, including workforce restructuring plans,
                     strategic plans, and the CWI contract;

                 •   Researched Federal and Departmental regulations;

                 •   Interviewed key personnel at the Operations Office, the
                     Office of Environmental Management, the Office of
                     Legacy Management, the Office of General Counsel, and
                     CWI;

                 •   Reviewed findings from prior audit reports regarding
                     workforce restructuring;

                 •   Compared the cost of the CWI voluntary separation
                     program to performance standards;

                 •   Compared the cost of the CWI voluntary separation
                     program to other sites' separation plans by applying the
                     separation incentive rates at other sites to the CWI
                     voluntary separation program population; and,

                 •   Assessed the personnel statistics of CWI from contract
                     takeover to August 2006.




Page 11                                  Objective, Scope, and Methodology
Appendix 1 (continued)

                    The audit was performed in accordance with generally accepted
                    Government auditing standards for performance audits and
                    included tests of internal controls and compliance with laws and
                    regulations to the extent necessary to satisfy the audit objective.
                    Specifically, we tested controls with respect to the Department's
                    design, approval, and implementation of contractor workforce
                    restructuring activities. Because our review was limited, it would
                    not necessarily have disclosed all internal control deficiencies that
                    may have existed at the time of our audit. Also, we considered the
                    establishment of performance measures in accordance with the
                    Government Performance and Results Act of 1993 as they related
                    to the audit objective, and determined that the Department needed
                    to establish Department-wide performance measures. Finally,
                    since we did not rely on automated data processing equipment to
                    accomplish our audit objective, we did not conduct tests to assess
                    the reliability of this equipment.

                    An exit conference was held with management on May 3, 2007.




Page 12                                         Objective, Scope, and Methodology
Appendix 2

                               RELATED AUDIT REPORT



     •    Department of Energy (Department), Value of Benefits Paid to Separated Contractor
          Workforce Varied Widely (GAO, January 1997). Similar benefits were offered to
          separated employees at most sites, but the value of the benefits varied considerably.
          The variance in separation payments was due to the differences in the severance pay
          formula used and the characteristics of the workforce at each facility. The difference
          in the value of benefits shows the emphasis the Department places on developing
          plans at the local level. The Department gives limited oversight on how to implement
          workforce restructuring plans. Little monitoring is done by Department program
          personnel. More than half of the plans provided more generous severance pay than
          would have normally been provided by contractors under existing contracts, and
          almost all plans provided benefits not normally provided by contracts, such as
          extended medical insurance. In addition, the benefits exceeded those that would have
          been provided to Federal employees in a reduction in force. The Department has
          taken steps to improve their ability to retain critically needed skills. New guidance
          emphasizes workforce planning and facilities using targeted voluntary separations to
          retain critical skills. Department guidance allows the use of enhanced severance
          payments to encourage voluntary separations. When reviews have been performed by
          the Office of Inspector General or Internal Audit, instances of excessive costs have
          been identified.




Page 13                                                                Related Audit Report
Appendix 3

                               SEPARATION PROGRAMS

           Site         Fiscal Year      Voluntary        Involuntary            Total

   Argonne                 2004                                 67                 67
   Argonne                 2005                                 87                 87
   Brookhaven              2004                                 50                 50
   Brookhaven              2005                                 53                 53
   Hanford                 2004                                151                151
   Hanford                 2005                                397                397
   Idaho                   2004                                 15                 15
   Nevada Test Site        2004                                 47                 47
   Nevada Test Site        2005                                 33                 33
   Oak Ridge               2004             193                 41                234
   Oak Ridge               2005                                 19                 19
   Fernald                 2004                                212                212
   Fernald                 2005                                233                233
   Paducah                 2004                                 18                 18
   Paducah                 2005                                  5                  5
   Kansas City             2004                                  1                  1
   Kansas City             2005                                 15                 15
   Portsmouth              2004                                 17                 17
   Portsmouth              2005                                 27                 27
   Rocky Flats             2004                                560                560
   Rocky Flats             2005                                967                967
   Savannah River          2004                                202                202
   Savannah River          2005                               1,193              1,193
   Mound                   2004                                142                142
   Mound                   2005                                 68                 68
   WIPP                    2004              41                  6                 47

   Total                                    234               4,626              4,860

  Bold indicates that this site was highlighted in this report. Involuntary Separations include
  any reductions conducted by offering involuntary separation benefits.

  The table includes the Defense Nuclear Sites that reported separations to Legacy
  Management in 2004 and 2005.




Page 14                                                                 Separation Programs
Appendix 4

                                     BACKFILLED POSITIONS

    Job Title –         Job Title – New          Work           Organization of        Number of
    Voluntary                Hire             Description of      Backfilled            Positions
    Separation                                 Backfilled         Positions            Backfilled
                                                Positions
Department              Department           Manager, Admin.    Dosimetry                   1
Manager                 Manager              Services
Department              Department           Manager, Sci/Eng   RWMC SDA                    1
Manager                 Manager
Department              Department           Manager,           Human Resources             1
Manager                 Manager              Operations
Department              Department           Manager, Sci/Eng   Maintenance                 1
Manager                 Manager
Various D&D             D&D Skilled Trade    Various            Various D&D                 6
Trades
D&D Helper              D&D Helper           Laborer            Various D&D                 8
SR Rad Con              SR Rad Con           Radiological       Radiological                2
Technician              Technician           Control Tech       Control
Staff                   Engineer/Scientist   Mechanical         Design and                  1
Engineer/Scientist                           Engineering        Engineering
Staff                   Staff                Quality            Quality Site                1
Engineer/Scientist      Engineer/Scientist   Engineering        Engineering
Staff                   SR                   Operations         Operations                  1
Engineer/Scientist      Engineer/Scientist   Engineering        Engineering
SR                      Engineer/Scientist   Electrical         Design and                  1
Engineer/Scientist                           Engineering        Engineering
PR Technical Spec       Technical Spec       FAC Operations     Coordination                1
                                                                Production
SR Tech Spec            Advisory Eng/Sci     Database           Enterprise System           1
                                             Engineering        Engineering
SR Tech Spec            PR Tech Spec         Computer System    Operations                  1
Bus/Ops Spec            SR Bus/ Ops Spec     Other Admin.       Training                    1
                                             Services
Electrician 1st         Electrician 1st      Electrician        Various                     1
Matl/Parts Specialist   Matl/Parts           Material           Warehouse/                  1
                        Specialist           Specialist         Distribution
Custodian               Custodian            Custodian          ICP Maintenance             3
Total CWI                                                                                  33
Employees
Subcontractors                                                                             11
Grand Total                                                                                44




Page 15                                                                       Backfilled Positions
Appendix 5




Page 16      Management Comments
Appendix 5 (continued)




Page 17                  Management Comments
Appendix 5 (continued)




Page 18                  Management Comments
                                                                    IG Report No. DOE/IG-0765

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
